<html>
<title> - NOMINATION OF MATTHEW G. OLSEN TO BE DIRECTOR, NATIONAL COUNTERTERRORISM CENTER</title>
<body><pre>[Senate Hearing 112-308]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-308
 
                  NOMINATION OF MATTHEW G. OLSEN TO BE
               DIRECTOR, NATIONAL COUNTERTERRORISM CENTER

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JULY 26, 2011

                               __________

      Printed for the use of the Select Committee on Intelligence


         Available via the World Wide Web: http://www.fdsys.gov


                  U.S. GOVERNMENT PRINTING OFFICE
72-744                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  


                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         OLYMPIA J. SNOWE, Maine
    Virginia                         RICHARD BURR, North Carolina
RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
BARBARA A. MIKULSKI, Maryland        DANIEL COATS, Indiana
BILL NELSON, Florida                 ROY BLUNT, Missouri
KENT CONRAD, North Dakota            MARCO RUBIO, Florida
MARK UDALL, Colorado
MARK WARNER, Virginia
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


                                CONTENTS

                              ----------                              

                             JULY 26, 2011

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia     3
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............     5

                                WITNESS

Olsen, Matthew G., Director-Designate, National Counter-Terrorism 
  Center.........................................................     6
    Prepared statement...........................................     9

                         SUPPLEMENTAL MATERIAL

Letter Dated July 22, 2011, from William Lynn to Senator Dianne 
  Feinstein......................................................    15
Letter Dated July 22, 2011, from Keith Alexander to Senator 
  Dianne Feinstein...............................................    16
Letter Dated July 20, 2011, from Mike McConnell to Senators 
  Dianne Feinstein and Saxby Chambliss...........................    18
Letter Dated July 20, 2011, from Michael Mukasey to Senator 
  Dianne Feinstein...............................................    20
Letter Dated July 14, 2011, from David S. Kris to Senators Dianne 
  Feinstein and Saxby Chambliss..................................    22
Letter Dated July 15, 2011, from Michael Leiter to Senators 
  Dianne Feinstein and Saxby Chambliss...........................    23
Letter Dated July 21, 2011, from Kenneth Wainstein to Senators 
  Dianne Feinstein and Saxby Chambliss...........................    25
Letter Dated July 22, 2011, from Timothy J. Heaphy to Senators 
  Dianne Feinstein and Saxby Chambliss...........................    28
Letter Dated July 25, 2011, from J. Patrick Rowan to Senators 
  Dianne Feinstein and Saxby Chambliss...........................    30
Letter Dated July 25, 2011, from Matthew W. Friedrich to Senators 
  Dianne Feinstein and Saxby Chambliss...........................    32
Letter Dated July 14, 2011, from Frank R. Wolf to Senator Dianne 
  Feinstein......................................................    33
Letter Dated July 21, 2011, from Frank R. Wolf to Senator Dianne 
  Feinstein......................................................    65
Letter Dated July 22, 2010, from Ronald Weich to Senators Dianne 
  Feinstein and Saxby Chambliss..................................    79
Questionnaire for Completion by Presidential Nominees............    98
Additional Prehearing Questions..................................   207
Letter from Don W. Fox, Office of Government Ethics, Dated July 
  11, 2011, to Senator Dianne Feinstein Transmitting Public 
  Financial Disclosure Report....................................   231


                  NOMINATION OF MATTHEW G. OLSEN TO BE
               DIRECTOR, NATIONAL COUNTERTERRORISM CENTER

                              ----------                              


                         TUESDAY, JULY 26, 2011

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
Room SD-562, Dirksen Senate Office Building, the Honorable 
Dianne Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Wyden, 
Mikulski, Conrad, Udall of Colorado, Warner, Chambliss, Snowe, 
and Coats.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order.
    The process will be as follows: I will make some remarks. 
The Vice Chairman will make some remarks. We will then call on 
the distinguished Senator from North Dakota for remarks. And 
then we will proceed. I trust that is agreeable with everybody.
    The Committee meets today to consider the President's 
nomination of Matt Olsen to be the Director of the National 
Counterterrorism Center.
    Mr. Olsen is currently the general counsel of the National 
Security Agency, and he's held a number of senior positions in 
the Department of Justice, including the National Security 
Division and the Federal Bureau of Investigation.
    Mr. Olsen has appeared as a witness before this Committee 
previously, and he has frequently briefed members and staff 
over the last several years. I'd like to welcome him back to 
this Committee.
    I'd like to begin today by discussing the current terrorist 
threat and the role of what we call NCTC, which Mr. Olsen will 
be leading, if confirmed.
    The NCTC is the central agency within the United States 
government dealing with the identification, prevention, 
disruption and analysis of terrorist threats. It's very 
important. While it's best known for its role in consolidating 
and analyzing terrorism-related intelligence, it also plays an 
important role in conducting strategic planning for 
counterterrorism actions across our government.
    The NCTC grew significantly in size, capability and 
maturity under the previous Director, Michael Leiter. Its 
successes and those of the broader counterterrorism community 
include numerous terrorist plots that were thwarted, both here 
at home and abroad.
    NCTC has also achieved less noticed but equally important 
advances in the sharing of threat information across the 
intelligence community--a streamlining, if you will, of 
intelligence, an improved watch-listing capability, and greatly 
improved analytic capability.
    Despite improvements and reforms, especially in response to 
the findings and recommendations of this Committee and others 
after the Christmas Day attempted attack by Umar Farouk 
Abdulmutallab, I'm still very concerned about the possibility 
of terrorist attacks against the United States. I believe this 
is a very critical time.
    The period leading up to the 10th anniversary of 9/11 is a 
period of heightened threat. Despite counterterrorism pressure 
against al-Qa'ida in Pakistan, including the successful strike 
against Usama bin Ladin in Abbottabad, the group remains 
dangerous and vengeful.
    At the same time, the threat from al-Qa'ida's affiliates 
and adherents around the world has increased and presents 
particular challenges. I'm especially concerned about the 
threat to the United States homeland from al-Qa'ida in the 
Arabian Peninsula--AQAP, we call it--as well as threats 
emanating from terrorist safe havens in Somalia and elsewhere.
    This means, at least to me, that this is a crucial time for 
our counterterrorism establishment to be at full strength and 
not to be leaderless. NCTC is a linchpin of this establishment. 
So I'm very pleased that the President has moved quickly to 
nominate Mr. Olsen, an individual serving in a senior 
intelligence community position today, to take the helm of this 
organization.
    Let me take just a moment to read the first paragraph from 
a letter of support for Mr. Olsen's nomination, written by 
General Keith Alexander, the Director of the National Security 
Agency.
    ``I am writing to wholeheartedly endorse the nomination of 
Matthew G. Olsen to be the next Director of the NCTC. Matt has 
served as the National Security Agency's general counsel for 
the past year and has shown true leadership, outstanding 
judgment and decisionmaking ability. He's been a key part of 
the agency's efforts to provide intelligence that allows our 
government to counter terrorist threats. In my opinion, Matt is 
superbly qualified to hold this critical intelligence community 
position.''
    Before his current position at NSA, Mr. Olsen served in the 
Department of Justice for 18 years, including 12 years as a 
federal prosecutor. In a letter of support for Mr. Olsen's 
nomination, former Attorney General Michael Mukasey wrote of 
Mr. Olsen, ``He was not only an excellent lawyer and manager, 
but also an exemplary person in dealing with his colleagues. 
Matt has, in abundance, every personal and professional quality 
and skill you could hope to find in a nominee to head the NCTC. 
His nomination has my unqualified support.''
    And finally, there is a letter from Mike McConnell in which 
he also offers his strongest possible support. ``As a 44-year 
veteran serving the nation as a member of the intelligence 
community, I had many opportunities to work with professionals 
of the Department of Justice. This was particularly true when 
serving as the Director of the National Security Agency and as 
the Director of National Intelligence. During those years of 
service, I never met or served with a more accomplished or 
dedicated professional than Matt Olsen. He understands the IC, 
its processes and procedures, and has served with 
distinction.''
    Well, I can go on and on, and I have many more pages here. 
I'm not going to do it. Suffice it to say that I believe that 
we have an extraordinarily qualified professional which can 
step into the leadership of NCTC and, at this very potentially 
vulnerable period, provide it with the leadership it really 
does deserve and merit.
    So, with that, Mr. Vice Chairman, may I ask you to make 
your remarks? Thank you.

  OPENING STATEMENT OF HON. SAXBY CHAMBLISS, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Thank you very much, Madam Chair.
    Mr. Olsen, congratulations on being nominated to be the 
Director of the National Counterterrorism Center. Thank you for 
your service to this country, especially in some very demanding 
roles over the last several years, and we also welcome your 
family and thank them for their great support to you and thus 
to our country. So we appreciate that very much.
    I also want to just say a special word of thanks to Mike 
Leiter, who you're going to be succeeding. You and I talked 
about this the other day. You and Mike are good friends. You 
know the kind of leadership he's provided in some very 
difficult circumstances. And while we've still had some growing 
pains at NCTC, Mike has brought us through some very tough 
times and I think has kind of righted the ship at times when it 
headed in a wrong direction. And I'm very appreciative of 
Mike's service and of his leadership.
    Mr. Olsen, your nomination comes at a critical point in our 
history in our fight against terrorism. While we've made 
considerable progress against al-Qa'ida in the FATA, we face 
growing threats as al-Qa'ida continues to spread.
    In my view, AQAP in Yemen poses the biggest threat to our 
safety and I urge you to make dismantling that group your 
primary focus before they strike us successfully here at home.
    This past spring brought immense changes to the Middle 
East, but it remains unclear what effect this may have on our 
long-term counterterrorism efforts. This uncertainty is further 
complicated by our own current fiscal condition, where resource 
constraints will undoubtedly impact our national defense and 
counterterrorism enterprise.
    Amid these new threats it is critical to our national 
security that the NCTC fully perform its mission. You and I 
have talked about some of the failings leading up to the 
Christmas Day bombing attempt, especially NCTC's inability to 
connect the dots. While there has been much progress, a lot of 
work remains, including on information-sharing and detainee and 
data retention.
    Whether it is an attack or an imminent threat like 12-25 or 
Times Square, you will often be the first point of contact with 
this Committee. We will expect your unvarnished analytic 
judgments, the facts and frank assessments. In the past, 
efforts to control the message for political purposes have 
resulted in Congress being given little or inaccurate 
information. That's not pointing a finger at this 
administration; it's happened in other administrations. As the 
NCTC Director, you will be expected to be forthright with this 
Committee and to push back on any effort to keep information 
from us.
    Along these same lines, I have shared with you some of my 
concerns about the recommendations made by the Guantanamo 
Review Task Force, which you directed. It disturbs me that 
under your leadership detainees were transferred or recommended 
for transfer to Yemen throughout 2009, even as the intelligence 
community warned the administration about the security 
situation there.
    We already knew that former Gitmo detainees were in AQAP 
leadership in Yemen, but it was only after AQAP's failed 
Christmas Day attack that the transfers stopped. In my mind 
this was an unacceptable risk for us to take. You mentioned in 
my office the pressure on the task force, in part because you 
were guided by the executive order on closing Gitmo. I suspect 
that the one-year deadline for closing Gitmo affected task 
force analysis and decisions.
    When the only original two options for each detainee were 
prosecution or transfer, it seems like there would have been 
significant pressure to lean towards transfer. I wonder if this 
explains why, after the initial task force review found 92 
detainees suitable for transfer, a second review came up with 
40 more transferable detainees and another 30 for conditional 
detention, which at the time was essentially delayed transfer.
    Congressman Frank Wolf of Virginia has expressed similar 
concerns about transfer decisions in a letter to the Committee, 
and some of the interactions that he had with you regarding the 
potential transfer of Uighurs into the United States. I am 
concerned that a member of Congress thinks he has been misled 
so I think it would be helpful if you explained your 
interactions with Congressman Wolf, and you and I have talked 
about this and I want to give you the full opportunity to do 
that this morning.
    But I urge you to be as forthcoming and direct about this, 
including information provided to or withheld from Congress on 
this issue. Ironically, in your new position one of your jobs 
will be tracking former detainees who have re-engaged, 
including some recommended for transfer by the task force. I 
urge you to take a fresh look at any intelligence on Gitmo 
detainees.
    Given the threat from AQAP and a recidivism rate now over 
26 percent, we are in no position to let any more dangerous 
detainees go. Unfortunately, the drive to close Gitmo has had 
the immediate and negative impact of leaving us with few 
options to detain terrorists outside of Afghanistan. As we draw 
down in Afghanistan, we will even lose that option.
    I'm sure you have seen press stories noting that the United 
States may be killing terrorists but we are not trying very 
hard to capture them, mostly because Gitmo has been taken off 
the table. Yet capturing and interrogating terrorists remains 
one of the best ways to get actionable intelligence and to 
prevent future threats.
    Again, Mr. Olsen, I congratulate you on your nomination and 
these issues need to be laid on the table and need to be 
fleshed out because the direct point of contact with this 
Committee is going to be you in so many instances, and we need 
to certainly have that feeling of trust that we have developed 
and need to develop stronger over the coming years while you're 
in this position.
    So thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman. 
And now I'd like to recognize the distinguished Senator from 
North Dakota, the Chairman of our Budget Committee on the 
Democratic side, Kent Conrad. Mr. Chairman, welcome.

  STATEMENT OF THE HONORABLE KENT CONRAD, A U.S. SENATOR FROM 
                          NORTH DAKOTA

    Senator Conrad. I thank you, Chairman Feinstein. Thank you, 
Vice Chairman Chambliss. Senator Coats, good to see you, and 
Senator Wyden. Senator Udall, Senator Warner.
    I am delighted to be able to introduce Matt Olsen. His 
parents are from North Dakota, people I've known a very long 
time. Matt's roots are deep in North Dakota. He returns there 
every chance he gets with his family, his wife, Fern, and his 
children, Ellie, Nate and Will. His sister Susan is with us as 
well.
    As I said, I've known this family for a very long time, and 
they are the best that it gets. His father was the chief of 
staff to the man that I defeated for the United States Senate--
and so I know how good he really is. Van passed away three 
years ago, but I know he's looking down with a twinkle in his 
eye today, proud of Matt and all that he has accomplished.
    You know, after defeating Van's boss for the United States 
Senate, I came here with some trepidation of what my 
relationship might be like with Van and his wife Myrna. They 
treated me with the greatest courtesy and over time became very 
good friends--the highest quality people that our state has to 
offer, and I believe the highest quality of people in the 
country. These are Americans through and through.
    Matt, your father would be so proud of you at this moment. 
I know he'd be looking down and saying, the boy's done good. 
And indeed you have. You've served your country with 
distinction at the Justice Department, the FBI and the National 
Security Agency, where you're currently the general counsel. 
Your public service has spanned three presidential 
administrations. That's a notable and impressive accomplishment 
and it speaks volumes about your competency and your 
professionalism.
    Colleagues, Matt has already accomplished so much, and now 
the President has asked him to assume one of the most important 
and demanding jobs in the intelligence community, the Director 
of the National Counterterrorism Center. We all know that the 
NCTC's mission is vital to combat terrorism at home and abroad 
by analyzing the threat, sharing the information with our 
partners and integrating all instruments of national power to 
ensure unity of effort. There is no doubt in my mind that Matt 
has the experience and the character to lead the NCTC.
    But don't just take my word for it. Admiral Mike McConnell 
served as Director of National Intelligence in President Bush's 
administration, and as Director of the NSA in the Clinton 
administration.
    Here's what Admiral McConnell had to say about Matt. 
``Having known and worked with Mr. Olsen for over four years, I 
have observed him to be the utmost professional, dedicated to 
the security of the nation. He understands the intelligence 
community and the law and processes needed to keep us safe. He 
has great respect for the law, our values and the activities 
needed to ensure the safety of the nation. I have every 
confidence that, if confirmed, Mr. Olsen will serve the nation, 
the Congress, the administration and the intelligence community 
at the highest level of service and performance.''
    Colleagues, Matt is smart. He is honest and he is a true 
professional and an absolute patriot. I can't put it much 
better than Admiral McConnell did. I hope very much that this 
Committee will move quickly on his confirmation and that our 
colleagues in the Senate will follow suit. It is really my 
honor to be here with Matt Olsen.
    Chairman Feinstein. Thank you very much, Mr. Chairman. 
Appreciate the remarks. I know you have a busy day. Much is 
happening, so you feel free to stay or leave, whichever you 
wish.
    Senator Conrad. I'll join you.
    Chairman Feinstein. Thank you. Thank you very much.
    Mr. Olsen, we will now turn to you. I was going to 
introduce your family. Senator Conrad did to some extent, but 
perhaps you'd go a little further and even ask them to stand 
up.

  STATEMENT OF MATTHEW G. OLSEN, DIRECTOR-DESIGNATE, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Olsen. Thank you. Thank you very much, Madam Chairman, 
and thank you very much, Vice Chairman Chambliss.
    I want to thank the entire Committee for taking the time to 
consider my nomination this morning. I especially want to thank 
Senator Conrad for that very warm and personal introduction. I 
really appreciate that.
    And I am grateful to the many members of the Committee that 
have had the opportunity over the last two weeks to meet and 
have conversations with. I really appreciate the thoughtful 
consideration that the Committee is giving to my nomination.
    At the outset, I want to thank the President for having the 
confidence to nominate me for this position and the Director of 
National Intelligence for supporting me. I am tremendously 
honored and humbled to be considered for this position.
    Let me also, if I may, take a moment to express my 
condolences to the people of Norway in the aftermath of the 
tragic attacks in Oslo last week. My grandfather emigrated to 
North Dakota from Norway at the age of 16. I have extended 
family that was in Oslo. I think that these heartbreaking 
events serve as a reminder to all of us of the importance of 
working together as an international community to prevent these 
sorts of acts of terror.
    And I appreciate very much, Madam Chairman, the opportunity 
to introduce my family. So I sit here today before you because 
of the support of my family and my friends and my colleagues, 
many of whom are here today. My wife, Fern, is directly behind 
me. My children--my daughter Elizabeth, my oldest son Nate, my 
youngest son, Will--are all here with me.
    I especially want to acknowledge my mother, Myrna, who is 
sitting here on the end; my father, Van, who was warmly 
remembered in Senator Conrad's remarks. Along with their love 
and guidance, my parents, my mother and father, have provided 
my sisters Susan and Jennifer with an example of how to live, I 
believe, with honor and integrity and devotion to others, and I 
couldn't be more grateful for them being here today.
    Madam Chairman and Vice Chairman Chambliss, members of the 
Committee, today, as we approach the 10th anniversary of al-
Qa'ida's attacks on September 11th, it is appropriate to 
reflect on that day, the day that our nation suffered the 
single most devastating attack in our nation's history.
    It was in the aftermath of that attack of that day that 
Congress established the National Counterterrorism Center. NCTC 
is the primary organization in the federal government for 
analyzing, integrating and sharing all-source intelligence 
information pertaining to terrorism and counterterrorism. In my 
view, no other organization is as singularly focused on 
preventing acts of terrorism.
    A decade after the September 11th attacks, we remain at war 
with al-Qa'ida and its affiliates. Thanks to the leadership of 
this Committee and to Congress, and thanks to the work of 
thousands of dedicated men and women in the intelligence 
community, including, as well, our men and women in uniform 
across the globe, al-Qa'ida is weakened.
    At the same time, al-Qa'ida and its adherents around the 
world, as well as other terrorist organizations, continue to 
pose a very significant threat to our country. Confronting this 
threat and working with focus and resolve to prevent a 
terrorist attack is NCTC's mission, first and foremost.
    And to fulfill this solemn responsibility, NCTC brings 
together a wide array of dedicated and talented professionals. 
This diverse workforce is, in my view, NCTC's greatest asset.
    In addition, NCTC embodies the principle that we all must 
serve as one team to protect the nation. We must work 
collaboratively and we must use every element of our national 
power to bring relentless and focused pressure against al-
Qa'ida and its adherents, as well as other terrorist networks 
around the globe.
    I've been privileged to serve--as a number of comments that 
were made this morning--in leadership positions dedicated to 
national security during my almost 20 years of career 
government service.
    As the general counsel of the National Security Agency, 
I've guided it and supported NSA's intelligence operations and 
I've ensured that the agency's activities adhere to the 
Constitution and the laws that govern its activities and that 
protect civil liberties and privacy of Americans.
    At the FBI, I was privileged to serve as counsel to 
Director Mueller, and in that role I was able to contribute to 
the transformation of the FBI into a world-class intelligence 
organization focused on preventing and disrupting potential 
terrorist plots.
    As a career official of the Department of Justice, working 
closely with this Committee and with Congress, I helped stand 
up the new National Security Division at Justice, and I managed 
the implementation of the landmark changes to the Foreign 
Intelligence Surveillance Act that Congress passed in 2008.
    I also supervised the Guantanamo Review Task Force, 
bringing together national security professionals from across 
the government to compile and analyze intelligence information 
on detainees.
    And, finally, I served for about 10 years in the District 
of Columbia as a federal prosecutor. In that role I learned the 
value of working as a team with investigators and operators, 
and I learned the fundamental importance of finding and 
following the facts wherever they lead.
    If I am honored to be confirmed to this position, I can 
assure you that I am committed to forging a strong and 
cooperative relationship with Congress. I believe, based on 
years of experience as a career government official, that 
congressional oversight is essential to NCTC and the effective 
conduct of intelligence activities.
    Members of Congress and particularly members of this 
Committee bring a vital perspective to the difficult issues 
that the intelligence community faces. The role of Congress is 
critical to building the trust of the American people in NCTC 
and in the intelligence community. And if confirmed, I commit 
to providing full and timely communication and transparency 
with the Congressional oversight Committees.
    NCTC's fundamental mission is to protect the nation from a 
terrorist attack. We must pursue this mission with vigilance 
and resolve. If confirmed, I pledge to do my very best to earn 
your trust and to give this effort my all.
    Madam Chairman, Vice Chairman, thank you very much for the 
honor of appearing before you.
    [The prepared statement of Mr. Olsen follows:]

    [GRAPHIC] [TIFF OMITTED] T2744.001
    
    [GRAPHIC] [TIFF OMITTED] T2744.002
    
    [GRAPHIC] [TIFF OMITTED] T2744.003
    
    [GRAPHIC] [TIFF OMITTED] T2744.004
    
    [GRAPHIC] [TIFF OMITTED] T2744.005
    
    Chairman Feinstein. Thank you very much, Mr. Olsen.
    I'd like the Members to know we have received the strongest 
and largest collection of letters on behalf of this nominee, 
certainly since I've been on this Committee, and it's from the 
heads and deputy heads of many different agencies. So those 
letters, along with the two letters from Congressman Frank Wolf 
and the addendums to those letters will be placed in the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2744.006
    
    [GRAPHIC] [TIFF OMITTED] T2744.007
    
    [GRAPHIC] [TIFF OMITTED] T2744.008
    
    [GRAPHIC] [TIFF OMITTED] T2744.009
    
    [GRAPHIC] [TIFF OMITTED] T2744.010
    
    [GRAPHIC] [TIFF OMITTED] T2744.011
    
    [GRAPHIC] [TIFF OMITTED] T2744.012
    
    [GRAPHIC] [TIFF OMITTED] T2744.013
    
    [GRAPHIC] [TIFF OMITTED] T2744.014
    
    [GRAPHIC] [TIFF OMITTED] T2744.015
    
    [GRAPHIC] [TIFF OMITTED] T2744.016
    
    [GRAPHIC] [TIFF OMITTED] T2744.017
    
    [GRAPHIC] [TIFF OMITTED] T2744.018
    
    [GRAPHIC] [TIFF OMITTED] T2744.019
    
    [GRAPHIC] [TIFF OMITTED] T2744.020
    
    [GRAPHIC] [TIFF OMITTED] T2744.021
    
    [GRAPHIC] [TIFF OMITTED] T2744.022
    
    [GRAPHIC] [TIFF OMITTED] T2744.023
    
    [GRAPHIC] [TIFF OMITTED] T2744.024
    
    [GRAPHIC] [TIFF OMITTED] T2744.025
    
    [GRAPHIC] [TIFF OMITTED] T2744.026
    
    [GRAPHIC] [TIFF OMITTED] T2744.027
    
    [GRAPHIC] [TIFF OMITTED] T2744.028
    
    [GRAPHIC] [TIFF OMITTED] T2744.029
    
    [GRAPHIC] [TIFF OMITTED] T2744.030
    
    [GRAPHIC] [TIFF OMITTED] T2744.031
    
    [GRAPHIC] [TIFF OMITTED] T2744.032
    
    [GRAPHIC] [TIFF OMITTED] T2744.033
    
    [GRAPHIC] [TIFF OMITTED] T2744.034
    
    [GRAPHIC] [TIFF OMITTED] T2744.035
    
    [GRAPHIC] [TIFF OMITTED] T2744.036
    
    [GRAPHIC] [TIFF OMITTED] T2744.037
    
    [GRAPHIC] [TIFF OMITTED] T2744.038
    
    [GRAPHIC] [TIFF OMITTED] T2744.039
    
    [GRAPHIC] [TIFF OMITTED] T2744.040
    
    [GRAPHIC] [TIFF OMITTED] T2744.041
    
    [GRAPHIC] [TIFF OMITTED] T2744.042
    
    [GRAPHIC] [TIFF OMITTED] T2744.043
    
    [GRAPHIC] [TIFF OMITTED] T2744.044
    
    [GRAPHIC] [TIFF OMITTED] T2744.045
    
    [GRAPHIC] [TIFF OMITTED] T2744.046
    
    [GRAPHIC] [TIFF OMITTED] T2744.047
    
    [GRAPHIC] [TIFF OMITTED] T2744.048
    
    [GRAPHIC] [TIFF OMITTED] T2744.049
    
    [GRAPHIC] [TIFF OMITTED] T2744.050
    
    [GRAPHIC] [TIFF OMITTED] T2744.051
    
    [GRAPHIC] [TIFF OMITTED] T2744.052
    
    [GRAPHIC] [TIFF OMITTED] T2744.053
    
    [GRAPHIC] [TIFF OMITTED] T2744.054
    
    [GRAPHIC] [TIFF OMITTED] T2744.055
    
    [GRAPHIC] [TIFF OMITTED] T2744.056
    
    [GRAPHIC] [TIFF OMITTED] T2744.057
    
    [GRAPHIC] [TIFF OMITTED] T2744.058
    
    [GRAPHIC] [TIFF OMITTED] T2744.059
    
    [GRAPHIC] [TIFF OMITTED] T2744.060
    
    [GRAPHIC] [TIFF OMITTED] T2744.061
    
    [GRAPHIC] [TIFF OMITTED] T2744.062
    
    [GRAPHIC] [TIFF OMITTED] T2744.063
    
    Chairman Feinstein. A housekeeping duty, if I may. If you 
would answer the following questions yes or no, please: Do you 
agree to appear before the Committee here or in other venues 
when invited?
    Mr. Olsen. Yes.
    Chairman Feinstein. Do you agree to send officials from the 
NCTC and designated staff when invited?
    Mr. Olsen. Yes.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Olsen. Yes.
    Chairman Feinstein. Will you ensure that the National 
Counterterrorism Center and its officials provide such material 
to the Committee when requested?
    Mr. Olsen. Yes.
    Chairman Feinstein. Do you agree to inform and fully brief, 
to the fullest extent possible, all members of this Committee 
of intelligence actions and covert actions rather than only the 
Chairman and Vice Chairman?
    Mr. Olsen. Yes.
    Chairman Feinstein. Thank you very much.
    Mr. Olsen, the ranking member brought up the questions that 
have been raised by a Member of Congress. We discussed them in 
our meeting. And in your prepared testimony, on page five, you 
discuss them as well.
    You indicate that in April of '09 you were part of a team 
of officials who provided a briefing about the initial stages 
of the process of reviewing detainees. And you were authorized 
during the briefing to discuss the review process. You were not 
authorized to discuss deliberations or decisions on specific 
detainees.
    And so, in accordance with those rules, you state, on page 
five, ``We provided a full and candid briefing about the 
detainee review process.'' So I would like you to address this 
issue--you have read Congressman Wolf's letter--and address it 
head on, if you will, for this Committee.
    Mr. Olsen. Yes. Thank you very much, Madam Chairman, and, 
as well, Vice Chairman Chambliss, for providing me with the 
opportunity to address those questions that were raised.
    Let me just say at the outset that there were essentially, 
as I understand from Congressman Wolf's letter, two questions 
or concerns.
    One was that we altered threat information--that that 
information was altered in the course of the task force review 
and that there was intentional misleading of him during a 
briefing. And I will say, just at the outset, that neither one 
of those things occurred. And I appreciate the opportunity to 
provide additional explanation of that.
    First, the question of whether or not threat information 
was changed or altered over the course of the task force 
review--the job that I had as the executive Director of the 
Guantanamo review task force in 2009 was to bring together 
career professionals and compile all of the information that 
had been obtained over the course of several years about each 
detainee--something that hadn't been done before--and to bring 
that information together in one place and to give that 
information a fresh and independent and objective review.
    We took that information and under my leadership, and under 
guidelines that we adopted as part of an interagency effort, we 
looked at that information. It was my responsibility to ensure 
that that was done in an impartial and unbiased way, that all 
the information was reviewed, that it was done with an 
interagency approach, that every dissenting or disparate 
opinion or view was fully aired.
    And then we took that information and presented it to a 
group of senior-level decisionmakers, along with our 
recommendations. And then the decisions were made based on that 
information by a senior-level group or review panel from six 
different agencies. The result of that work over the course of 
a year was that all 240 detainees were given a disposition, and 
in every single case, every detainee was determined on a 
unanimous basis on what the appropriate status was of that 
detainee.
    There was never, at any time, any effort to change threat 
information, to hide from any fact. The explicit guidance--my 
particular responsibility, I believed, was to follow every fact 
and be as precise and specific and rigorous in analyzing those 
facts and then presenting that information to the policy-level 
decisionmakers.
    There were occasions when we looked at facts and looked at 
them differently than prior assessments had done. In 
particular, JTF-GTMO--joint task force at Gitmo--had prepared 
assessments. We looked at those. Those were all part of our 
information. And in many cases--most cases, I believe--we 
agreed with those assessments. But there were instances when we 
looked at those facts and came to different conclusions. But 
there was never, on any occasion, an effort to change, alter or 
hide from those facts. Those were all fully aired.
    On the second question, if I may--the question of whether 
or not I intentionally misled Congressman Wolf in a briefing--
again, I did not. We met in April of 2009, in his office. I was 
part of a team from the Department of Justice and the White 
House that went to brief Congressman Wolf on not just the 
Guantanamo review task force but all three of the task forces 
that were set up under the three executive orders issued by 
President Obama in January of 2009.
    This was at the very early stages of our review process. We 
had really just begun the effort to review the first set of 
detainees. And it was made clear to Congressman Wolf before 
that briefing and during that briefing that the ground rules 
would be that we could discuss the process that we were 
undertaking to conduct that review, but that we were not 
authorized to discuss any particular decisions or any specific 
detainees.
    We did, in fact, lay out the process for him, and I 
understand that now he has expressed concern that he was not 
given full information about the actual decisionmaking status 
with respect to the group of detainees known as the Uighurs, 
the Chinese Uighurs, who were at Guantanamo. I did not discuss, 
because I was not authorized to discuss or make a unilateral 
decision as a career Department of Justice official, what the 
status was of that decisionmaking process.
    I certainly--as I've said to Congressman Wolf in a 
conversation I had with him on the telephone a few months ago, 
I understand his frustration and I very much, very much regret 
that he has the view that I intentionally misled him. And I do 
hope that if I'm confirmed, I would have the opportunity to 
regain his trust and work with him in a collaborative and 
cooperative way, moving forward.
    I will say that as a general matter I have been candid, 
honest and direct in all of my interactions with Congress. I 
have met many times with staff and Members, particularly of 
this Committee, over the course of my career as a career 
government official, not only on the Guantanamo review but also 
on the FISA Amendments Act and other matters.
    And I have taken it as a matter of pride and a deeply held 
view that I have been honest and candid and direct on all 
occasions. And as I said, I do hope I have the opportunity to 
regain the trust of Congressman Wolf and work with him.
    Chairman Feinstein. Thank you very much. Mr. Vice Chairman.
    Vice Chairman Chambliss. Thanks, Madam Chair.
    Mr. Olsen, let me carry that question one step further 
because, obviously, it's a very, very serious issue when you 
have a member of Congress who thinks he's been misled. So I 
want you to have full opportunity to explain it. And I want to 
quote to you what Congressman Wolf's recollection of the 
scenario was. In the memorandum that he prepared within the 
last couple of weeks that I know you've had the opportunity to 
look at, here's what he says:
    He said, ``It has recently come to my attention that I was 
misled about the status of the transfer of the Uighur detainees 
in April, 2009. This information confirms the Newsweek report 
that career federal employees were explicitly directed to hide 
this information from Members of Congress, especially 
Republican Members. During an April 22nd, 2009, meeting in my 
office with members of the Guantanamo Bay detainee review task 
force, including Mr. Olsen, I inquired about the status of the 
potential transfer of Uighur detainees to the United States.''
    ``Mr. Olsen indicated that a decision had not yet been 
reached on the transfer of the detainees. None of the other 
career or political officials in the meeting countered Mr. 
Olsen's assertion. That is why I was deeply concerned to learn, 
in an April, 2011, Washington Post article, that the final 
decision on the transfer of the Uighur detainees had been made 
during a White House meeting eight days before my meeting with 
Mr. Olsen.
    ``According to the Washington Post article, the first 
concrete step toward closing the detention center was agreed 
upon during an April 14, 2009, session at the White House. It 
was to be a stealth move. `They were going to show up here and 
we were going to announce it,' said one senior official 
describing the swift, secretive operation that was designed by 
the administration to preempt any political outcry that could 
prevent the transfer.' ''
    Mr. Wolf goes on, ``Following the publication of this 
article in April, I personally called Mr. Olsen to ask whether 
he was aware at the time of my meeting with him on April 22nd, 
2009, that a decision had already been made on the transfer of 
the detainees. He told me that he was aware of the decision 
prior to our meeting. I believe that I was intentionally misled 
by Mr. Olsen and other administration officials during my April 
22nd meeting with the task force.
    ``I am also concerned that the Attorney General did not 
acknowledge that a decision had been made when he appeared 
before the House Commerce, Justice, Science Appropriations 
Subcommittee the following day. That's why I was surprised when 
my office was notified by a career federal employee that the 
administration was misleading the Congress and planned to 
secretly transfer the detainees around May 1, 2009.''
    Now, I understand, Mr. Olsen, you're saying you were not at 
liberty to discuss the details of any particular detainee, but 
this goes beyond that. His comments go beyond that. So I want 
to give you a full opportunity to address exactly what 
Congressman Wolf remembers about that meeting.
    Mr. Olsen. Yes, thank you very much, Vice Chairman. At the 
time that that briefing occurred of Congressman Wolf on April 
21st or 22nd, there had, at that point, been a decision by 
senior-level members of the administration--again, our process 
was to make recommendations to a senior review group. In this 
case, this went to a very high-level group of senior officials.
    And the decision at that point--I think April 14th is the 
right date; I've gone back and looked at my notes--there had 
been a decision to take, move, transfer a small number of 
detainees--Uighur detainees--to the United States. There was 
not, at that time, a decision on which detainees to move or, as 
I recall, no decision about where, exactly, they would go. But 
I remember, at the time of the briefing, that there had 
actually been, as I said, a decision to move, I think two, 
detainees--two Uighur detainees--to the United States, to 
transfer those detainees to the United States.
    So at that time, there had been that decision.
    The FBI and the Department of Homeland Security, as I 
recall, were given the responsibility--not my task force; not 
the Guantanamo task force--to determine which detainees were 
the right two to move, given a number of considerations, when 
to do that, under what circumstances, and where they would go. 
And those efforts were under way.
    At no time did I say that there was no decision to 
Congressman Wolf. I just believe that that is a misrecollection 
or misperception. I did say that I was not--we were not 
authorized to talk about specific decisions that were then 
under way, and I was not authorized to talk about specific 
detainees.
    Again, so I do understand his frustration. I don't--I did 
not mislead. I was not in a position to decide myself at that 
time that I was going to lay out exactly where that 
decisionmaking process was. We had met before that briefing and 
talked about what we were going to say and what we were going 
to talk about in terms of the review process. And I do very 
much regret that he has taken that view and I do understand his 
frustration with learning through the press later that that 
decisionmaking process was well under way.
    But Senator, that is exactly where that stood on that day. 
When I briefed Congressman Wolf, there had been a decision to 
bring two detainees. They had not been identified as to which 
ones. And, as I recall, there was no decision about exactly 
where they would go within the United States.
    Vice Chairman Chambliss. In Congressman Wolf's memo, he 
refers to other career political officials that were in that 
meeting. Did you go back and visit with those individuals to 
get their recollection of exactly what was said after 
Congressman Wolf came forward with this?
    Mr. Olsen. I've talked to others who were part of the 
preparation for that briefing. I have not talked to--I have 
talked to other members of that briefing team previously, so 
several months ago I talked to, because I talked to Congressman 
Wolf, I think, in April of this year. And around that time, I 
talked to a number of the individuals who were part of that 
briefing. And it was--and I think our recollections were the 
same as to how that briefing went.
    Vice Chairman Chambliss. Can you provide the Committee with 
the names of those other individuals that were in that meeting 
at that time, within the next 24 hours?
    Mr. Olsen. Absolutely. Absolutely. And the other step I 
took, Vice Chairman, was to talk to the Department of Justice 
legislative affairs office. And I believe that the Assistant 
Attorney General submitted a letter to the Committee along the 
same lines, that the ground rules for that briefing were that 
we would talk about the process, but not specific decisions or 
detainees.
    And, in fact, a letter was sent to Congressman Wolf in July 
of 2009, so three months after the April 2009 briefing, which 
reaffirmed that decision, and that specific detainees were not 
the subject on which briefings would occur or had occurred, but 
that we were able to talk about the process. And so even at 
that time, in July of 2009, in a letter to Congressman Wolf, 
that was made clear and presented to Congressman Wolf in a 
letter from the Department of Justice.
    Vice Chairman Chambliss. Thanks, Madam Chair.
    Mr. Olsen. If I may, may I just add one other quick point 
on this?
    Chairman Feinstein. Please.
    Mr. Olsen. Because I really want to address what I 
understand is an understandable concern from the Committee if 
I'm confirmed and I'm in a position such as the Director of 
NCTC.
    I believe wholeheartedly that, in that role, that I have an 
absolute obligation, to the best of my ability, to provide all 
intelligence information in a full and timely way to this 
Committee. And I believe, if I am in that position, my 
authority, my ability to make that judgment in an autonomous 
and unilateral way, greatly exceeds what it was in April of 
2009. And the Committee has my full commitment that I will live 
up to that obligation.
    Chairman Feinstein. Mr. Vice Chairman, there is a letter 
dated July 22nd signed by Ron Weich, Assistant Attorney 
General, which clearly states the career officials who provided 
the briefing, including Mr. Olsen, were authorized by the 
Department to discuss the review process in general but were 
not authorized to discussion deliberations or decisions about 
any specific detainees.
    And it goes on to say, ``Consistent with the parameters set 
for the briefing, he did not''--he, being Matt Olsen--``did not 
discuss internal decisionmaking or the status of specific 
detainees.'' This letter will go in the record and obviously be 
available.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2744.064
    
    [GRAPHIC] [TIFF OMITTED] T2744.065
    
    Chairman Feinstein. The next one up was Senator Conrad and 
he's not here.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    And Mr. Olsen, thank you for our visit. I appreciated your 
candor and also your taking extra time to go over and meet in a 
secure facility so that we could discuss some sensitive 
matters.
    I have been on this Committee for more than a decade now, 
and I believe this is the first time we've had the top lawyer 
at the National Security Agency before the Committee in an open 
session.
    Now, I'm not going to get into any details of how the NSA 
does business. But since you are the chief legal officer at one 
of the country's largest intelligence agencies, it's safe to 
say that you are an expert on surveillance law.
    So I'd like to begin by asking a few questions about 
several areas of surveillance law and about how you and your 
colleagues have interpreted the laws so that we can get some of 
this information on the public record.
    The first question is, would you agree that key portions of 
the USA PATRIOT Act have been the subject of significant secret 
legal interpretations and that these interpretations are secret 
today?
    Mr. Olsen. Senator Wyden, thank you. If I may just say at 
the outset, I did appreciate the opportunity to talk to you in 
both your office and in the classified setting to talk about 
some of these matters. And I appreciate your ongoing interest 
and concern about them.
    The direct answer to your question is that there are 
provisions of the PATRIOT Act that are the subject of matters 
before the Foreign Intelligence Surveillance Court, a court 
that, by design, meets in a classified setting. And some of the 
pleadings and opinions that relate to the PATRIOT Act that have 
been part of proceedings before the Foeign Intelligence 
Surveillance Court are classified.
    Senator Wyden. So it is fair to say that key provisions of 
the PATRIOT Act and how they're legally interpreted are being 
kept secret as of today.
    Mr. Olsen. It is certainly fair to say that there are 
opinions from the court that are classified. I do feel it's 
important to add that those opinions are part of what is 
provided to this Committee and that the activities that are 
undertaken in accordance with those orders of the court are 
subject to extensive oversight from across the government.
    Senator Wyden. Would you agree that key portions of the 
FISA Amendments Act of 2008 have been the subject of 
significant secret legal interpretations and that those are 
secret today?
    Mr. Olsen. Let me say yes, and then let me add that the 
answer is that, similar to the PATRIOT Act, there are 
particular provisions of the Foreign Intelligence Surveillance 
Act that, in the course of implementing those provisions, the 
government--and I was part of this effort--submits pleadings to 
the FISA court. And then, by design, again, under the statute, 
the FISA court issues--considers those pleadings in a 
classified setting and then issues opinions authorizing or not 
those activities.
    And it is the case, if I may also add, that as we've 
reviewed those opinions, as we've looked at those opinions, 
working with you and others, that it's very difficult at times 
to separate those portions of the opinions that are subject 
to--could be disclosed because they only contained legal 
information versus the linkage or intertwining of legal 
analysis and facts.
    Senator Wyden. So you have said that there are, in fact, 
secret legal interpretations with respect to both the PATRIOT 
Act and the FISA Amendments Act. And is there anything further 
that you can tell us about their subject matter?
    Mr. Olsen. I don't think there's anything further that I 
can discuss in an open setting. I know you appreciate that, 
Senator. I know you appreciate--obviously you do--the 
importance of protecting the sources and methods that are 
described in those opinions.
    I would restate what I just said, that----
    Senator Wyden. Let's--my time is very short.
    Mr. Olsen [continuing]. Certainly.
    Senator Wyden. You've given thoughtful answers. As you 
know, we have a difference of opinion here. It's my view that 
we have to keep operations and methods secret, but we've got to 
also have public awareness of the laws on the books. We're 
going to continue this discussion, I'm sure.
    I need to ask you one other question, and that is on a 
different legal topic. Do government agencies have the 
authority to use cell-site data to track the location of 
Americans inside the United States for intelligence purposes?
    Mr. Olsen. Senator, I know that that's a question that 
you've posed to the Director of National Intelligence, Director 
Clapper. It is a question that is a complicated and difficult 
question to answer, particularly in this setting.
    I will say that the intelligence community is working as we 
speak--I know we've talked to your staff--in developing a 
comprehensive answer to that question, which will be provided 
to you in writing.
    Senator Wyden. Madam President, I know my time has expired, 
but just a quick follow-up on that. You seem to be suggesting, 
then, Mr. Olsen, that the executive branch has not yet settled 
that question. Is that accurate?
    Mr. Olsen. I think it's very important to be precise about 
exactly what the question is. And I----
    Senator Wyden. The question is, does the government have 
the authority to use sell-site data to track the location of 
Americans inside the country? I think you answered initially 
that it had not yet been settled by the executive branch with 
respect to whether or not there is that authority. I think this 
is an extremely important point, and I just want to make that 
clear, and I believe you're saying it has not yet been settled 
by the executive branch that it has that authority.
    Mr. Olsen [continuing]. I think there are certain 
circumstances where that authority may exist. I do think it's a 
very complicated and difficult question. And I would ask your 
indulgence to allow that question to be prepared in an 
unclassified setting in writing to you, Senator.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. And if I may, Senator, I well know of 
your concerns, and we have discussed them. And what I'd like to 
do in our first hearing, in September, when we come back--
assuming there is an August break--I'd like to have that 
classified session, and would ask, Mr. Olsen, that you have 
that memo prepared, that the answer's in writing, that you and 
any authorities you wish to bring with you will attend the 
hearing. Do I have your agreement?
    Mr. Olsen. Yes, absolutely.
    Chairman Feinstein. Thank you very much.
    Senator Wyden. Madam Chair, just on this point, to wrap up, 
I would just like to say to you and to colleagues that you have 
been very fair in terms of handling this issue. As you know, 
Senator Udall and I and other colleagues have had concerns 
about it. We've been examining it in both classified and open 
session. And I want to thank you for the way you're handling 
it.
    Chairman Feinstein. Oh, you're very welcome. Happy to do 
it.
    Senator Conrad.
    Senator Conrad. Madam Chair and Vice Chair and Members of 
the Committee, instead of asking questions, I'd like to make a 
further statement, if I could, Madam Chair, about this nominee. 
He comes from a family that I have known for 30 years, a family 
that was on the other side of the aisle from me. As I indicated 
before, his father was the chief of staff of the man I defeated 
for the United States Senate.
    And yet he treated me with the greatest generosity of 
spirit that anybody could ask for.
    Now, I just want to say, these are people of the highest 
quality, of the very highest quality, in every single way. The 
highest character--I would trust Matt Olsen with every penny 
that I've got, because of the character of this family.
    And I know around here it's all demolition derby. My God, 
when does it end? If we can't take somebody who has, at every 
step, been endorsed with the strongest praise--people from the 
Republican side of the aisle, the Democratic side of the 
aisle--the highest performance standard, the highest quality 
standard, the highest character standard--and I understand we 
have an oversight responsibility, we have a responsibility to 
ask the tough questions.
    But I just want to say to colleagues, I would put my entire 
reputation on the line for this nominee. That's how strongly I 
feel. So--you know, I've been here 25 years. I think I've 
conducted myself with character. And I hope it counts for 
something when we have a nominee of this quality.
    Chairman Feinstein. Thank you very much, Senator. I think 
those are very heartfelt remarks and very much appreciated. So 
thank you.
    Senator Coats.
    Senator Coats. Thank you, Madam Chairman.
    Mr. Olsen, I appreciate the discussion we had in my office 
earlier, and your testimony today. Your educational background 
is superb, and your experience background is, if not unmatched, 
very impressive. And the recommendations that you've had from 
former Attorney General Mukasey, Mr. McConnell and General 
Alexander speak highly of you. And other people, very credible 
people, including Senator Conrad, have spoken about your 
character, your family, the kind of person you are. And I think 
that's high recommendation, from my colleague as well as from a 
number of other people.
    As you know, we discussed in my office the same concerns 
that Senator Chambliss discussed with you. I don't want to 
repeat all of that. I do want to state that it's disturbing 
that, assuming these new sources are credible about a secretive 
plan, a stealth plan--it's disturbing if those are true. These 
are reputable news organizations. I assume The Washington 
Post--which I don't always agree with everything they do, but 
they usually check very carefully before they make this type of 
allegation. This is a serious allegation, some kind of 
concocted White House stealthy, secret plan.
    You've discussed and, for the record, explained your 
position relative to this, where you were and your relationship 
with Mr. Wolf and so forth.
    But the larger question is, given the politics of the issue 
at the time, the fact that a decision was made by someone at 
the highest levels to bypass through a stealthy, secret plan is 
a serious, serious charge and, if true, a serious, serious 
offense.
    My question to you is--and you made your pledge to us that 
you will not withhold any type of intelligence that is 
available to you from this Committee. And I take you at your 
word for that.
    What I want to ask you is the reverse of that: If you 
become aware of some action, some policy decision, some piece 
of intelligence that this Committee ought to know about but 
that it is politically sensitive and perhaps there are concerns 
that you might be sharing information that people at policy 
levels don't want shared, are you willing to serve as an 
independent Director of NCTC and provide us with your 
independent opinion as to that? I just think it's critical that 
we are aware of that.
    And so I would like to get your reaction to that on the 
reverse side of what you do know relative to intelligence, or 
what you don't know but have some concerns about not knowing--
have something withheld from you that you've said, you know, I 
don't feel like I've been given full information relative to 
what this Committee ought to be aware of.
    Mr. Olsen. Yes, thank you very much, Senator. The answer is 
yes, I absolutely do pledge to the best of my ability to 
provide my unvarnished views to the Committee; as I said, I 
commit to providing full, timely intelligence information to 
the Committee at all times. I commit to being an advocate for 
providing as much information as possible to the Committee 
within the executive branch. I wholeheartedly believe in the 
essential role that the Committee plays, and that that role is 
a partnership, particularly when it comes to intelligence 
matters and national security; that there is no place for 
political considerations when it comes to counterterrorism and 
the fundamentally important mission of NCTC.
    And so I would be both a person who would view that role as 
a partnership with this Committee, that I would provide that 
information and that I would be, as I said, an advocate for 
leaning as far forward as possible, as my abilities allow, into 
providing that type of information at all times to the 
Committee.
    And if I could maybe just address, sir, the specific issue, 
I don't want the record to reflect that I view or had the 
understanding that there was a stealthy or secret effort to 
move detainees into the United States. I don't believe--I was 
not aware that that was ever the case, and I don't believe that 
ever was the case.
    In other words, there was a decision to move two 
detainees--two Uighur detainees to the United States. There was 
an effort undertaken then by the FBI and DHS to determine who 
and where.
    But I never was under any impression--I never believed that 
that effort had progressed to the point that it was going to be 
a secret or stealthy move but rather that the time for 
disclosing that was being discussed and was not something that 
was my decision to make.
    Senator Coats. Thank you for that answer. I just want to 
restate how critically important it is that we have a trust 
with each other----
    Mr. Olsen. Yes.
    Senator Coats [continuing]. Because we are dealing with 
matters of incredible importance to the safety and security of 
the American people. And if we lose that element of trust in 
terms of how we communicate with each other within the 
intelligence community--and we have a responsibility to ensure 
that, you know, we live up to our part of the bargain on this 
also.
    And I'm hoping that we can do that with you. And I think 
that perhaps this is a little warning sign here in terms of 
let's be diligent to make sure that that level of trust exists 
and that level of sharing of information with the Committee and 
us with you exists.
    With that, Madam Chairman, I yield back my time.
    Mr. Olsen. I could not agree more, Senator. Thank you.
    Chairman Feinstein. Thank you, Senator Coats.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chair.
    And welcome, Mr. Olsen. You certainly come to this position 
with an impressive array of credentials, and I congratulate 
you. And certainly Senator Conrad's commendations on your 
behalf certainly speaks volumes about what you represent and 
what you bring to this position, which is obviously significant 
as we continue to face a growing threat.
    I'd like to just explore with you for a moment in the 
aftermath of the assassination of Usama bin Ladin, how would 
you describe the al-Qa'ida threat and what it poses today? I 
know you have said it remains the most significant threat to 
the United States, in combination with regional affiliates that 
are dispersed.
    And as you've mentioned, it's certainly a dynamic and 
complex environment and certainly an asymmetrical threat, hard 
to identify, hard to quantify. So where do you think we stand 
today in terms of, one, mitigating that threat, and certainly 
since the killing of Usama bin Ladin?
    Mr. Olsen. Thank you very much, Senator.
    The threat I think today is as diffuse and as complex and 
challenging as it has been at any time. Certainly it is the 
case that, again through the leadership of the Congress and the 
hard work of thousands of men and women, both in the 
intelligence community and the military, we've made substantial 
progress against al-Qa'ida and its affiliates.
    And the killing of Usama bin Ladin was a significant 
milestone in that effort. And it is clear, I think, from the 
threat information that I've seen, both beginning in 2004 when 
I started working with the FBI through my time at the 
Department of Justice and to my position now at the National 
Security Agency, that al-Qa'ida in many ways is weakened. It 
remains the case, however, that it is a more diffuse and 
dispersed threat, as you made reference to.
    And in particular, I think the concern that the Vice 
Chairman made reference to with respect to al-Qa'ida's presence 
in Yemen and in places like Somalia makes it particularly 
challenging from a counterterrorism perspective.
    I think that in some ways the opportunity that presents 
itself now to the counterterrorism community in the United 
States, as well as with our allies around the world, is that we 
must actually redouble our efforts, that, as the President has 
said, al-Qa'ida is on the path to defeat, but we have to look 
at that threat in all of its various forms, not only in the 
tribal regions of Yemen but in the FATA in Pakistan and also in 
parts of North Africa, and in Somalia.
    Ultimately the NCTC's mission is to stop another terrorist 
attack. And if I may just say that the leadership of Mike 
Leiter and now, in acting capacity, of Andrew Liepman, I think 
NCTC has played a vital role in that effort. But it's a team 
approach and we face as challenging a time, I think, as we ever 
have.
    Senator Snowe. Are you confident that we have the ability 
to, you know, work across the agencies, as you--obviously the 
obligation of the NCTC is to coordinate and to integrate all of 
that analysis. Do you think we've got it?
    Mr. Olsen. I think that we've made a lot of progress. I do 
think as this Committee, in its report on the Abdulmutallab 
attack of December 25, 2009, demonstrated, we still face 
challenges. And particularly I reviewed the Vice Chairman's and 
Senator Burr's separate opinion, which was quite critical, and 
appropriately so I think, in certain ways, of NCTC.
    Senator, if I may say, I think the greatest challenge 
facing NCTC is in some way its greatest strength--that it 
brings together analysts, planners, other professionals from 
across the intelligence community and the military to bring all 
these different viewpoints together.
    How do we reconcile the different backgrounds and 
perspectives? That's really its greatest strength. We need to 
rely on the intelligence community to continue to provide those 
professionals and provide an atmosphere and environment where 
they are located together and collaborate.
    So, in direct response to your question, I think that is 
one of the greatest strengths of NCTC. I think we have some 
progress to be made both with respect to the collaboration 
feature but also information sharing and breaking down barriers 
to sharing information not only within NCTC but with our 
partners.
    Senator Snowe. You mentioned that we've degraded the 
capability of al-Qa'ida in Pakistan. How would you compare that 
threat with respect to the regional affiliates? Which is 
greater?
    Mr. Olsen. It's difficult to answer a ``which is greater?'' 
I think I do agree with the Vice Chairman's observation that 
recent events would suggest that the regional affiliates, 
particularly al-Qa'ida in the Arabian Peninsula and its 
presence in Yemen, have shown a willingness and a level of 
capability to strike in the United States. I think that it must 
be a primary focus of NCTC and of the counterterrorism 
community broadly.
    Senator Snowe. Do you think that that is the single 
greatest goal of al-Qa'ida, is to strike the United States? Is 
that their foremost goal?
    Mr. Olsen. It certainly remains a significant goal. I think 
that its goals are multivaried, and the threat--again, part of 
the challenge is that threat is not so much the senior 
leadership in Pakistan with one unified goal. It's now diffused 
in various regional locations under various leaders and with 
various goals. But it is certainly sufficiently a goal that it 
has to be NCTC's number one mission.
    Senator Snowe. How would you define the strategic defeat of 
al-Qa'ida leadership?
    Mr. Olsen. The strategic defeat of al-Qa'ida? I think I 
would define it as ending the threat that al-Qa'ida and all of 
its affiliates pose to the United States and its interests 
around the world.
    Senator Snowe. Okay, thank you.
    Thank you, Madam Chair.
    Mr. Olsen. Thank you.
    Chairman Feinstein. Thank you very much, Senator Snowe.
    Senator Wyden has some additional questions, and the Vice 
Chairman and I also. So, Senator Wyden, why don't you go ahead?
    Senator Wyden. Thank you, Madam Chair. And just two 
additional matters.
    Following up on Senator Snowe's questions, Mr. Olsen, 
beyond al-Qa'ida's core leadership in Pakistan and the al-
Qa'ida affiliate in Yemen, which terrorist group, in your view, 
poses the greatest threat to the country?
    Mr. Olsen. I would say that beyond al-Qa'ida senior 
leadership in Pakistan, its presence in Yemen, that probably 
the next most significant terrorist threat may emanate from the 
al-Qa'ida presence in Somalia in terms of the willingness and 
apparent ability, or at least the intent, to strike outside of 
that particular country.
    We know that that country, that group, has successfully 
mounted an attack in Uganda, and the apparent ability of a 
regional affiliate such as that to move outside of the borders 
of that country I think poses a significant threat. But the 
threat goes beyond even just al-Qa'ida, of course, and its 
affiliates, to other groups such as Hezbollah.
    So I think, again, I have to say that I'm not in a position 
at NCTC now so I approach these types of questions with some 
humility and some deference to the professionals who are 
looking at these questions on a daily basis.
    Senator Wyden. One last question, if I might.
    Earlier this year Under Secretary Cohen from the Treasury 
Department told the Finance Committee, on which I serve, that 
Kuwait has become one of the most challenging countries to deal 
with when it comes to counterterrorism, and, in addition, that 
as other Gulf states have improved their cooperation with U.S. 
terrorist activity in the Gulf we are seeing, in effect, Kuwait 
become more permissive--significantly more permissive.
    Do you have an opinion on this yet?
    Mr. Olsen. My answer, Senator, if I may, is somewhat 
general, which--I would say that our relationships with 
countries such as Kuwait, other Gulf states, certainly 
countries like Pakistan are complex and have multiple 
dimensions. I do think that the counterterrorism effort is a 
central goal or central feature of those relationships. If I'm 
confirmed, I would look forward to the opportunity in the role 
of NCTC Director to provide my objective and unvarnished view 
about the counterterrorism threat to contribute to the overall 
discussion and development of a posture toward a country like 
Kuwait.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much.
    Mr. Vice Chairman, why don't you go ahead, and I'll finish 
up.
    Vice Chairman Chambliss. Sure. Mr. Olsen, I want to ask 
you, on three or four different subjects here, to give us a 
general discussion and response to some questions that I'm 
going to lay out. But I'm more interested in your general 
discussion on the issues. But obviously I think the questions 
will throw out some ideas for you.
    By December 2009, it had become clear that many transferred 
Gitmo detainees had joined AQAP in Yemen. Additionally, the IC 
and State Department took a dim view of the willingness or 
capability of the Yemeni government to monitor detainees. And I 
believe such assessments were made clear to the task force.
    Yet in late 2009, the task force decided to transfer seven 
Yemeni detainees back to Yemen, only one of whom was ordered 
released by the court. And his case was not appealed. Now, my 
questions are, in December 2009, did you personally believe it 
was a good idea to transfer detainees to Yemen?
    Secondly, you've told us before that you were trying to 
test the system by sending the group of detainees back in 
December of 2009. Do you think testing the system when the 
result of a failed test could be an attack on Americans was a 
good idea?
    And lastly, in hindsight, in light of the fact that the 
government is winning all of its habeas appeals, would you have 
changed any of the task force transfer decisions? And do you 
think dangerous detainees were transferred as a result of the 
task force process?
    Mr. Olsen. Senator, thank you. And I do very much 
understand, of course, in our conversations--both my 
conversation with you as well as the ongoing discussions I've 
had with members of the Committee staff--the substantial 
concern about the detainees from Yemen and the transfer 
decisions that were made back in 2009. So if I may give you a 
relatively general, longer answer, I appreciate your 
indulgence.
    The Yemen detainee population was a concern of the task 
force's from its onset. When we started this process under the 
President's executive order in February of 2009, there were 97 
Yemeni detainees out of the 240 detainees at Guantanamo subject 
to the review. So by far the single largest nationality 
represented at Guantanamo were from Yemen. And this was a 
problem that existed before 2009. In other words, prior to 
2009, government officials had struggled with how handle the 
disposition of this substantial number of Yemen detainees.
    Over the course of that year, through our task force 
effort, we were very aware of a number of different factors. 
One, that the security situation in Yemen was continuing to 
deteriorate over the course of that year, and by December of 
2009 we were quite aware of the concerns that the intelligence 
community and our military leaders were expressing about Yemen.
    We were also quite aware that our record of success in the 
habeas courts, that the number of Yemeni detainees as well as 
others were challenging the lawfulness of their detention, and 
we were being briefed by the Department of Justice about how 
those cases were going. At one point in September of 2009, I 
recall that we were approximately eight successful defenses 
versus 31 losses in the federal courts. And there was a real 
concern being expressed by the Department of Justice that not 
only were we losing these cases, but we were losing our 
credibility generally in a way that was affecting facts and 
legal rulings that might impact cases down the road.
    I think the other factor that was a significant one for us 
with respect to Yemen was that there were no options that 
appeared to be available in terms of other countries willing to 
take detainees from Yemen, not countries that had 
rehabilitation programs and not countries in Europe that had 
been taking a number of detainees--I think over 50 over the 
course of the last couple years--who had humane-treatment 
concerns about being repatriated to their home country. So I 
know I've just laid out to you a problem that you're well 
familiar with. But those were the factors that were presented 
to us as we conducted this review.
    Our job on the task force, I felt--and my responsibility as 
the executive Director--was to provide the best factual 
information in the most precise, specific and rigorous way 
possible to decisionmakers. We did that over the course of the 
review. The decision to send seven detainees in December--now I 
know an eighth Yemeni detainee has been repatriated to Yemen--
those decisions have all been made at very senior levels, and 
all based on the unanimous judgment of representatives of six 
different agencies, including the Department of Defense, the 
intelligence community and the Joint Chiefs of Staff. Two of 
those eight detainees were ordered released by the court.
    I think when I said in our conversation that the six or so 
that went in December--if that number's correct--or before, in 
the fall of 2009--I don't remember the exact timeframe--but the 
thought there--and I was present for some of the discussions, 
although I wasn't a voting member or a decisionmaker--the 
thought was we would never at any time send a significant 
number of Yemeni detainees back. The question was, could the 
Yemeni government and security forces handle the security 
measures that would be necessary to ensure that those transfers 
were handled responsibly?
    Our process had a very strict standard. No detainee would 
be eligible for transfer unless any threat that detainee posed 
could be sufficiently mitigated through adequate and 
appropriate security measures in the host country--in the 
destination country. That standard never changed from the 
beginning to the end of our task force review. And that was a 
standard that the decisionmakers who made that decision 
applied.
    So if I may, in sum--I think those were very difficult 
decisions. And I want to address your question before I forget. 
It is true I cited the habeas record of eight and 31. We've 
done much better from the executive branch's point of view 
since that time. We've had a number of successful litigation 
victories in the D.C. Circuit Court of Appeals.
    The question whether or not that would have changed our 
view or the view of the decisionmakers on a particular detainee 
I think is hard to answer, and somewhat speculative on my part. 
I do think that it would have lowered the significance of that 
factor as it pertained to a particular detainee. So it would 
have--you know, I suppose I could say it's possible that it may 
have affected a decision. But it would be speculative for me to 
say more about that.
    Vice Chairman Chambliss. You mentioned in my office with 
respect to the pressure on the task force that there was 
pressure in part because the task force was guided by the 
executive order on closing Gitmo. Can you explain now about how 
that pressure existed and what you did to try to make sure your 
decisions were not influenced by it? How many attorneys 
assigned to the task force had represented detainees before 
joining your staff? And did you feel pressure from any of those 
attorneys, others in DOJ or other parts of the administration 
to lean towards transferring as many detainees as possible?
    Mr. Olsen. As I mentioned to you, Senator, in our meeting, 
it certainly was the case that we had an executive order issued 
by the President in January of 2009 and that we were duty bound 
to follow that executive order. That executive order set forth 
three potential options for each detainee: transfer, if such a 
transfer could be accomplished consistent with the national 
security and foreign policy interests of the United States. 
That was the first option. If transfer was not available, 
prosecution, if feasible. And if neither transfer nor 
prosecution was an appropriate option, then select another 
appropriate option, undefined in the executive order.
    I wouldn't necessarily say that that was pressure. That was 
guidance or direction from the President of the United States 
to follow that. And I felt my obligation was to ensure that 
everything that the task force did certainly followed that 
direction but did not respond to any of the what was obvious at 
the time, controversy from both sides about Guantanamo. It's 
been a subject of controversy for many years.
    I felt it was my obligation to insulate the career 
professionals who worked on this review. Over the course of the 
year in 2009, over a hundred people worked on this review from 
the Department of Defense, from the intelligence community, 
CIA, NCTC, Homeland Security, State, Justice. And every single 
one of them was a career individual.
    In response to your question, I don't believe that a single 
one of the attorneys who worked on the review had ever played a 
role in representing detainees. I know that's been a subject of 
controversy and been reported in the press in the past with 
respect to other Department of Justice attorneys. I don't 
believe that anyone on our task force had ever worked in that 
capacity.
    Again, everyone who worked on my review came from the 
career ranks. As I said, I felt it was my responsibility to 
insulate that group from any of the types of controversy 
surrounding Guantanamo. And I think, if I may, Senator, say the 
results of the review, the recommendations and the analysis we 
did, resulting in unanimous decisions on 240 detainees, speak 
for themselves, I think, in this regard.
    Out of those 240 detainees, there were 126 transfer 
decisions. But there were also 48 decisions to hold those 
detainees under the laws of war. When we started the review in 
January of 2009, that was not necessarily even considered an 
option. We pushed for that as the right option for 48 
detainees--that they could not be tried, there was not evidence 
to try them. They could not be transferred safely. They needed 
to be held indefinitely under the laws of war.
    That's 48 of those detainees; in addition, 36 detainees 
referred either to the military commission or to federal courts 
for prosecution, 36 in that category, and then 30 in the 
category Yemeni detainees of conditional detention. Those 30 
detainees, the decision was that they would not be transferred. 
They would be detained until the security situation in Yemen 
substantially improved, something that obviously has not 
happened. So they are effectively in the same category as the 
48 held under the laws of war.
    Vice Chairman Chambliss. The Chairman and I are both very 
concerned about the fact that we currently have no detention 
and interrogation policy going forward with respect to 
individuals who may be captured, high-value targets who may be 
captured outside of Afghanistan.
    As Director of NCTC, you will be integrally involved in the 
deliberations relative to any proposal for a long-term plan on 
detention and interrogation. And my question to you is, are you 
prepared to give sound advice, number one, that you're going to 
be asked to give?
    And secondly, if the administration appears to be headed 
down a road that you don't think is the right direction to go, 
will you say to this Committee now that you're going to express 
yourself in a very strong manner to help to try to develop the 
best possible policy for detention and interrogation of high-
value targets, even though your opinion may be contrary to the 
folks at the White House who are nominating you today?
    Mr. Olsen. Yes, absolutely. And if I may, I do make that 
pledge. I think, in my prior positions, I have taken that 
position. In other words, I have given advice in an 
unvarnished, objective, independent way. As a career government 
official, I've made known my personal views and sought to move 
positions based on my objective and independent and non-
political perspective.
    I do think that these questions, Senator--if I may say, 
some of these questions are some of the most difficult ones 
that we face from a counterterrorism perspective, the question 
of detention policy. I absolutely agree that it would be my 
responsibility, if I'm honored to be confirmed, to give my 
unvarnished and objective views, share the intelligence with 
this Committee, and advocate for what I believe is the right 
thing, to the best of my abilities within the executive branch.
    Vice Chairman Chambliss. Some would argue that Gitmo should 
be closed because it is used as a recruiting tool for al-
Qa'ida. And that may be true. But yet al-Qa'ida uses our Israel 
policy, the Afghan war, the death of bin Ladin and a host of 
other issues as recruiting tools, and no one suggests that we 
should change these policies.
    In your current position or positions you have held, have 
you seen any evidence that we are safer or that recruits have 
fallen off as a result of the President's announcement of his 
intent to close Guantanamo?
    Mr. Olsen. I've not seen, from, again, my perspective, both 
on the task force and in a much more limited perspective in my 
current role at the National Security Agency, anything, in 
specific response to your question, to that effect, that 
there's a change in recruiting based on the current government 
policy.
    Vice Chairman Chambliss. All right. Lastly, let me tell you 
an issue that we've got that I know you're aware about and get 
your thoughts on. In the past, NCTC has raised a number of 
concerns about not having access to all the intelligence 
information it needs.
    Of particular concern is access to information in the 
possession of the Department of Homeland Security. Generally, 
DHS is reluctant to provide information relating to an 
individual's asylum application or refugee status on the 
grounds that sharing that information would violate U.S. person 
restrictions. The specific legal basis for DHS's position is 
unclear.
    Have you got any thoughts on how we can address that 
problem with DHS? And are asylum seekers U.S. persons or 
considered U.S. persons? Is that an issue in your mind?
    Mr. Olsen. Senator, I am generally familiar with this area 
or this issue. I don't have the specifics of the particular 
concern with DHS. I've had some briefings about this question.
    If I may say, I do believe that, given my role at the 
Department of Justice and my role now, that I have both an 
understanding--actually, quite a deep understanding of the 
rules that apply to protect civil liberties and privacy of U.S. 
persons. But I also, I think, have a very strong view and a 
record of finding the appropriate ways to overcome legal, 
sometimes perceived legal, as well as the policy barriers to 
sharing information.
    I don't believe that there is a strong basis for, as a 
policy matter, not allowing information to be shared when that 
information is necessary to protect the American people. And if 
I am honored to be confirmed, it will absolutely be my 
commitment to find a way to overcome expressed concerns about 
sharing information when that information is necessary to 
support NCTC's mission, and that is to prevent another 
terrorist attack. So the Committee certainly has my commitment 
to look very hard at that question.
    Vice Chairman Chambliss. Well, as you and I discussed in my 
office, the critical role that NCTC plays is, for the most 
part, centered around information sharing, both in its 
requirement that you, as Director of NCTC, share information 
you have, but you've got to get the information first.
    And let me just say that the Chairman and I, I think, stand 
without question ready to make sure that you've got all the 
tools that you need. And from a policy standpoint, we're 
prepared to do what's necessary to make sure that the 
information that you have to be shared is all of the 
intelligence information.
    And let me just close by saying that, as the Chairman 
stated, we've gotten inundated with letters of recommendation, 
which you should feel very honored to be supported in that 
respect. And I know you are.
    The letter from General Alexander was very complimentary. 
And not only did he write a letter, but he happens to be a good 
friend, a guy that I have the utmost respect for, and he called 
yesterday to reinforce that recommendation. And, because I have 
such respect for General Alexander, that means a lot.
    So we'll look forward to moving down the road. And the only 
thing I would remind you of is if you could get us those names 
of those individuals in that briefing. And hopefully we'll get 
this nomination moved quickly.
    Madam Chair, thank you.
    Mr. Olsen. Thank you very much.
    Chairman Feinstein. Thank you very much.
    You know, I'd like to close off the briefing. I cannot 
imagine a more thankless task than being Director of the policy 
Committee of which you were Director, because you know, no 
matter what, it's thankless. And no matter what, there's going 
to be criticism, and particularly in those days, as I recall 
them, where it was so very, very difficult. So I just want to 
thank you for that. And in my book, you're a straight shooter. 
And I think that's what matters here.
    I would like to just talk about the vision thing for a 
moment, if I might. One of NCTC's statutory responsibilities is 
to conduct strategic operational planning for counterterrorism 
activities and integrate all of the instruments of national 
power.
    However, when it granted NCTC this responsibility, Congress 
didn't provide you with any authority to compel actions in 
these areas. So we may have to go back and look at that again.
    But the question is, what is your vision of NCTC's role in 
conducting strategic operational planning for counterterrorism 
activities and integrating all the instruments of national so-
called power into that planning?
    Mr. Olsen. Thank you very much, Senator.
    As you point out, one of the critical missions of NCTC is 
the strategic operational planning mission. I do believe that 
NCTC is uniquely positioned to conduct that mission. And my 
vision for that is consistent with, I think, the effort and the 
progress that NCTC has made in that regard over the last couple 
years--that is, bringing together the various represented 
entities, whether it's military or intelligence community, 
combining those perspectives--and those perspectives vary--in a 
way that will allow us to make sure that the efforts that the 
U.S. government is undertaking to combat terrorism, whether it 
is on a regional level, focusing on a particular region or a 
particular problem or a particular topic such as countering 
violent extremism--conducting an all-of-government approach to 
address those issues, something that NCTC is, I think, as I 
said, uniquely positioned to do, both because it has members 
from all these different agencies brought together and because 
it has the mission granted to it by Congress.
    So I would consider that to be one of the focuses that I 
would have. And I would also commit and I would not hesitate to 
return to this Committee with updates on that effort and to 
tell you if I think that there are authorities that are lacking 
or necessary.
    Chairman Feinstein. Good.
    Now, you're also the national intelligence manager for 
counterterrorism. And in that regard, you're going to be 
responsible for evaluating the intelligence community's 
performance on terrorism and recommending budget allocations 
across agencies. In my book, this is a very important job. How 
do you see yourself carrying this part of your responsibility 
out?
    Mr. Olsen. Thank you for that question. I have had an 
opportunity to talk at least briefly with Director Clapper 
about this very important role, particularly under the 
leadership that he has for ODNI and the intelligence community 
in general. I think that NCTC has done a good job in its role 
as the NIM. It is, I think, a real focus because of the 
challenges that we face----
    Chairman Feinstein. I don't particularly like that acronym, 
the NIM.
    Mr. Olsen. It is not my favorite either, so I will----
    Chairman Feinstein. Because this is a big deal.
    Mr. Olsen. Yeah.
    Chairman Feinstein. I mean, I don't think it should be 
trivialized. And I think it's one area where not enough is done 
and there is not enough central administration of budget 
authority.
    Mr. Olsen. Right. So I will stick with ``national 
intelligence manager.''
    Chairman Feinstein. Thank you.
    Mr. Olsen. I think the challenge is that we do face a much 
more difficult budgetary environment than we did in the last 
few years. And I fully appreciate that reality. I've seen it in 
my role at NSA, where I've been part of senior leadership 
meetings about how NSA is going to react and respond to the 
budget constraints that we are likely to face, that we will 
face.
    The question will be, how do we make sure that we are 
focusing on the right priorities as a counterterrorism 
community? And how do we achieve efficiencies where we can in 
order to meet the challenge that the current budget environment 
poses?
    Chairman Feinstein. Well, you see, from my point of view, 
counterterrorism is extraordinarily important. It is vital to 
the protection of the homeland. Therefore, having a strategy 
and an approach to it and a pattern and a practice that's well 
established and carried out across the government is very, very 
vital to have.
    Candidly, I don't know whether we have that today. And so 
this question is meant with a view that I think it's really a 
prime mission of yours.
    Mr. Olsen. Well, I appreciate that. And again, I will, for 
that reason, make that a prime mission of mine and will, again, 
commit to come back and talk to you and the Committee and the 
staff and keep you apprised as often as necessary on the 
progress we're making.
    Chairman Feinstein. Right. One last thing. As you know, the 
defense bill has some language on detention in it, some of 
which is good and some of which we think is not good. We--you 
know, as Chairman of the Committee--are trying to draft some 
legislation. I'd like to ask that you help us and work with us 
on that, if you will.
    Mr. Olsen. Of course. I will, yes.
    Chairman Feinstein. Okay. Thank you very much.
    I see no other Member. So we would like to have the 
Director of the NCTC in place actually before going on the 
August recess. And I really think this is a very important 
matter that we're able to do that. So I would like to ask that 
any questions for the record be submitted by 5:00 on 
Wednesday--that's tomorrow afternoon--so we can get answers and 
vote on the nomination just as soon as possible. We do not want 
to leave this agency leaderless.
    So I thank you for your service to our country. I've been 
watching the faces of your three children and your wife's 
supervision in her eyes as this hearing has gone on. And I just 
want you three to know how very proud we are of your father, 
that he has been just of enormous service to this country and 
has much more yet to do. And I hope you are very proud as well.
    So, with that in mind, we'll conclude this hearing and move 
your nomination onward. Thank you very much.
    [Whereupon, at 11:36 a.m., the Committee adjourned.]

                         Supplemental Material

[GRAPHIC] [TIFF OMITTED] T2744.066

[GRAPHIC] [TIFF OMITTED] T2744.067

[GRAPHIC] [TIFF OMITTED] T2744.068

[GRAPHIC] [TIFF OMITTED] T2744.069

[GRAPHIC] [TIFF OMITTED] T2744.070

[GRAPHIC] [TIFF OMITTED] T2744.071

[GRAPHIC] [TIFF OMITTED] T2744.072

[GRAPHIC] [TIFF OMITTED] T2744.073

[GRAPHIC] [TIFF OMITTED] T2744.074

[GRAPHIC] [TIFF OMITTED] T2744.075

[GRAPHIC] [TIFF OMITTED] T2744.076

[GRAPHIC] [TIFF OMITTED] T2744.077

[GRAPHIC] [TIFF OMITTED] T2744.078

[GRAPHIC] [TIFF OMITTED] T2744.079

[GRAPHIC] [TIFF OMITTED] T2744.080

[GRAPHIC] [TIFF OMITTED] T2744.081

[GRAPHIC] [TIFF OMITTED] T2744.082

[GRAPHIC] [TIFF OMITTED] T2744.083

[GRAPHIC] [TIFF OMITTED] T2744.084

[GRAPHIC] [TIFF OMITTED] T2744.085

[GRAPHIC] [TIFF OMITTED] T2744.086

[GRAPHIC] [TIFF OMITTED] T2744.087

[GRAPHIC] [TIFF OMITTED] T2744.088

[GRAPHIC] [TIFF OMITTED] T2744.089

[GRAPHIC] [TIFF OMITTED] T2744.090

[GRAPHIC] [TIFF OMITTED] T2744.091

[GRAPHIC] [TIFF OMITTED] T2744.092

[GRAPHIC] [TIFF OMITTED] T2744.093

[GRAPHIC] [TIFF OMITTED] T2744.094

[GRAPHIC] [TIFF OMITTED] T2744.095

[GRAPHIC] [TIFF OMITTED] T2744.096

[GRAPHIC] [TIFF OMITTED] T2744.097

[GRAPHIC] [TIFF OMITTED] T2744.098

[GRAPHIC] [TIFF OMITTED] T2744.099

[GRAPHIC] [TIFF OMITTED] T2744.100

[GRAPHIC] [TIFF OMITTED] T2744.101

[GRAPHIC] [TIFF OMITTED] T2744.102

[GRAPHIC] [TIFF OMITTED] T2744.103

[GRAPHIC] [TIFF OMITTED] T2744.104

[GRAPHIC] [TIFF OMITTED] T2744.105

[GRAPHIC] [TIFF OMITTED] T2744.106

[GRAPHIC] [TIFF OMITTED] T2744.107

[GRAPHIC] [TIFF OMITTED] T2744.108

[GRAPHIC] [TIFF OMITTED] T2744.109

[GRAPHIC] [TIFF OMITTED] T2744.110

[GRAPHIC] [TIFF OMITTED] T2744.111

[GRAPHIC] [TIFF OMITTED] T2744.112

[GRAPHIC] [TIFF OMITTED] T2744.113

[GRAPHIC] [TIFF OMITTED] T2744.114

[GRAPHIC] [TIFF OMITTED] T2744.115

[GRAPHIC] [TIFF OMITTED] T2744.116

[GRAPHIC] [TIFF OMITTED] T2744.117

[GRAPHIC] [TIFF OMITTED] T2744.118

[GRAPHIC] [TIFF OMITTED] T2744.119

[GRAPHIC] [TIFF OMITTED] T2744.120

[GRAPHIC] [TIFF OMITTED] T2744.121

[GRAPHIC] [TIFF OMITTED] T2744.122

[GRAPHIC] [TIFF OMITTED] T2744.123

[GRAPHIC] [TIFF OMITTED] T2744.124

[GRAPHIC] [TIFF OMITTED] T2744.125

[GRAPHIC] [TIFF OMITTED] T2744.126

[GRAPHIC] [TIFF OMITTED] T2744.127

[GRAPHIC] [TIFF OMITTED] T2744.128

[GRAPHIC] [TIFF OMITTED] T2744.129

[GRAPHIC] [TIFF OMITTED] T2744.130

[GRAPHIC] [TIFF OMITTED] T2744.131

[GRAPHIC] [TIFF OMITTED] T2744.132

[GRAPHIC] [TIFF OMITTED] T2744.133

[GRAPHIC] [TIFF OMITTED] T2744.134

[GRAPHIC] [TIFF OMITTED] T2744.135

[GRAPHIC] [TIFF OMITTED] T2744.136

[GRAPHIC] [TIFF OMITTED] T2744.137

[GRAPHIC] [TIFF OMITTED] T2744.138

[GRAPHIC] [TIFF OMITTED] T2744.139

[GRAPHIC] [TIFF OMITTED] T2744.140

[GRAPHIC] [TIFF OMITTED] T2744.141

[GRAPHIC] [TIFF OMITTED] T2744.142

[GRAPHIC] [TIFF OMITTED] T2744.143

[GRAPHIC] [TIFF OMITTED] T2744.144

[GRAPHIC] [TIFF OMITTED] T2744.145

[GRAPHIC] [TIFF OMITTED] T2744.146

[GRAPHIC] [TIFF OMITTED] T2744.147

[GRAPHIC] [TIFF OMITTED] T2744.148

[GRAPHIC] [TIFF OMITTED] T2744.149

[GRAPHIC] [TIFF OMITTED] T2744.150

[GRAPHIC] [TIFF OMITTED] T2744.151

[GRAPHIC] [TIFF OMITTED] T2744.152

[GRAPHIC] [TIFF OMITTED] T2744.153

[GRAPHIC] [TIFF OMITTED] T2744.154

[GRAPHIC] [TIFF OMITTED] T2744.155

[GRAPHIC] [TIFF OMITTED] T2744.156

[GRAPHIC] [TIFF OMITTED] T2744.157

[GRAPHIC] [TIFF OMITTED] T2744.158

[GRAPHIC] [TIFF OMITTED] T2744.159

[GRAPHIC] [TIFF OMITTED] T2744.160

[GRAPHIC] [TIFF OMITTED] T2744.161

[GRAPHIC] [TIFF OMITTED] T2744.162

[GRAPHIC] [TIFF OMITTED] T2744.163

[GRAPHIC] [TIFF OMITTED] T2744.164

[GRAPHIC] [TIFF OMITTED] T2744.165

[GRAPHIC] [TIFF OMITTED] T2744.166

[GRAPHIC] [TIFF OMITTED] T2744.167

[GRAPHIC] [TIFF OMITTED] T2744.168

[GRAPHIC] [TIFF OMITTED] T2744.169

[GRAPHIC] [TIFF OMITTED] T2744.170

[GRAPHIC] [TIFF OMITTED] T2744.171

[GRAPHIC] [TIFF OMITTED] T2744.172

[GRAPHIC] [TIFF OMITTED] T2744.173

[GRAPHIC] [TIFF OMITTED] T2744.174

[GRAPHIC] [TIFF OMITTED] T2744.175

[GRAPHIC] [TIFF OMITTED] T2744.176

[GRAPHIC] [TIFF OMITTED] T2744.177

[GRAPHIC] [TIFF OMITTED] T2744.178

[GRAPHIC] [TIFF OMITTED] T2744.179

[GRAPHIC] [TIFF OMITTED] T2744.180

[GRAPHIC] [TIFF OMITTED] T2744.181

[GRAPHIC] [TIFF OMITTED] T2744.182

[GRAPHIC] [TIFF OMITTED] T2744.183

[GRAPHIC] [TIFF OMITTED] T2744.184

[GRAPHIC] [TIFF OMITTED] T2744.185

[GRAPHIC] [TIFF OMITTED] T2744.186

[GRAPHIC] [TIFF OMITTED] T2744.187

[GRAPHIC] [TIFF OMITTED] T2744.188

[GRAPHIC] [TIFF OMITTED] T2744.189

[GRAPHIC] [TIFF OMITTED] T2744.190

[GRAPHIC] [TIFF OMITTED] T2744.191

[GRAPHIC] [TIFF OMITTED] T2744.192

[GRAPHIC] [TIFF OMITTED] T2744.193

[GRAPHIC] [TIFF OMITTED] T2744.194

[GRAPHIC] [TIFF OMITTED] T2744.195

[GRAPHIC] [TIFF OMITTED] T2744.196

[GRAPHIC] [TIFF OMITTED] T2744.197

[GRAPHIC] [TIFF OMITTED] T2744.198

[GRAPHIC] [TIFF OMITTED] T2744.199

[GRAPHIC] [TIFF OMITTED] T2744.200

[GRAPHIC] [TIFF OMITTED] T2744.201

[GRAPHIC] [TIFF OMITTED] T2744.202

[GRAPHIC] [TIFF OMITTED] T2744.203

[GRAPHIC] [TIFF OMITTED] T2744.204

[GRAPHIC] [TIFF OMITTED] T2744.205

[GRAPHIC] [TIFF OMITTED] T2744.206

[GRAPHIC] [TIFF OMITTED] T2744.207

[GRAPHIC] [TIFF OMITTED] T2744.208

[GRAPHIC] [TIFF OMITTED] T2744.209

[GRAPHIC] [TIFF OMITTED] T2744.210

[GRAPHIC] [TIFF OMITTED] T2744.211

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
